                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A11050036                                                                       Page 1 of 1



                  Our investigation determined that the Subject 1 acted to submit an NSF proposal 2 from his
         institution without the knowledge ofthe listed PI and coPI. NSF sent a letter of reprimand to the
         Subject, and to the Acting Provost of the institution.

                 This memo, the attached Report of Investigation, and the Deputy Director's letters
         constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
      National Science Foundation
       Office of Inspector General




                 Report of Investigation
                Case Number A11050036
                              4 October 2012
                   This Confidential Report of Investigation is provided to you
                                  FOR OFFICIAL USE ONLY.
It contains protected personal information, the unauthorized disclosure of which may result in
personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
disclosed within NSF only to individuals who must have knowledge of its contents to facilitate NSF's
assessment and resolution of this matter. This report may be disclosed outside NSF only under the
Freedom oflnformation and Privacy Acts, 5 U.S.C. §§ 552 & 552a. Please take appropriate
precautions handling this confidential report of investigation.
                                     Executive Summary

Institution's inquiry and investigation concluded that:

   •   The Subject inappropriately listed two scientists as PI and coPI on a proposal submitted
       to NSF of which the two scientists had no knowledge; and
   •   The Subject circumvented the Institution's standard proposal preparation and clearance
       process.

The Institution:

   •   Strengthened its controls for proposal preparation, clearance, and submission; and
   •   Issued a letter of caution to the Subject.

OIG recommends that NSF:

   •   Send a letter to the Subject and the Institution emphasizing the unacceptability of falsely
       listing two scientists as PI and coP I of a proposal;
   •   Add a diary note to the eJacket for this proposal noting that neither the PI nor the coPI
       was involved in the preparation or submission of the proposal;
   •   Provide written notice to the specific reviewers for this proposal to inform them that
       neither the PI nor the coPI was involved in the preparation or submission of the proposal;
       and
   •   Apprise the relevant NSF Program Officer that neither the PI nor the coPI was involved
       in the preparation or submission of the proposal.
                                 Institution's Inquiry and Investigation

         We received notice from the Director of a Sponsored Research Office (SRO) of an
Institution 1 about an irregularity in their proposal submission process. The PI 2 and coPI 3 of an
NSF proposal 4 received notice of the proposal's declination, but were apparently unaware that a
       sal had been           and submitted to NSF bearing their names. The Institution's
                                             conducted an inquiry, which prompted a subsequent full


        Theil inquiry report was sent to the Faculty Council chair and to the Institution's
President 5 and Provost; 6 we received a copy of the inquiry report 7 through the Institution's
Inspector General's office. 8 The. interviewed individuals in the SRO, the PI, the coPI, and
the Subject, 9 who was thought to have been involved in proposal preparation. During the
inquiry, the  II  established that:

         1) The Subject (with assistance from a few other individuals) conceived of a proposal in
         the area of cyber research, and used the names of the PI and coP I because of the need for
         "academic credentials" for leaders of an NSF proposal. The Subject's name does not
         appear anywhere within the proposal.

         2) The Subject had very preliminary conversations with the PI about a proposal, but no
         such conversations with the coP I. Neither the PI nor the coPI was aware that a proposal
         had actually been submitted in their names until they received the letter of declination
         from NSF (the PI) or were contacted by t h e . (the coPI). The coPI's professional
         expertise was not relevant to the research proposed.

         3) The Subject instructed a junior SRO staff member to create an NSF Fastlane account
         in the PI's name, and instructed SRO staff to submit the proposal with the AOR's
         signature. However, the AOR 10 was also unaware ofthe proposal submission, as she was
         out of her office the week that the Subject submitted the proposal.




8
   Subsequently, we discussed the matter with an agent in the Institution's Inspector General office who indicated
they planned to review the matter. Shortly thereafter, the agent informed us that they concluded the
within his         authority to submit the proposal to NSF (phone conversation with

                                                                                                                 and
                      Institution.
    The Authorized Organizational

                                                                                                                     2
         4) The Institution's standard signature page (part of the usual submission process) was
         not completed for this proposal.

       The. noted the Subject's actions were not in compliance with the Institution's
proposal submission process and concluded that the professional reputations of the PI and coPI
were harmed through the poor reviews of the proposal:

         Both [the PI and coPI] have suffered material damage to their reputations, and
         [the organization] itself suffers discredit as a consequence ofthis act. This is not
         acceptable in an academic or professional environment, and appropriate action
         should be taken to make clear the gravity of the various parties' mistakes and
         misconduct. 11

The. recognized the seriousness ofthe Subject's actions in this case, but made no specific
recommendations for action regarding the Subject. The. recommended that the Institution's
SRO revise procedures for proposal submission.

        Based on the inquiry, the Institution initiated a full investigation of actions resulting in
submission ofthe NSF proposal. 12 The investigation confirmed the primacy ofthe Subject's
involvement in preparation of the NSF proposal, and delineated the secondary involvement of
others assigned to prepare first drafts of the proposal. The report described poor judgments made
by the Subject in a rushed proposal preparation process, inaccurate assumptions about proper
procedures made by other individuals involved in creation of this proposal, and failure to follow
established SRO procedures for proposal submission. The investigation determined that the
proposal draft was written by another individual under direct orders from the Subject. The
Subject edited the draft only slightly. The investigation concluded that the most egregious action
by the Subject was his decision to "administratively assign" the PI and coPI to the proposal
without consulting with them. 13

         Specifically, the investigation report stated:

         The rushed timeline was self-imposed in spite of the opportunity to submit six
         months later and the recommendation by those experienced in competitive
         proposal writing against attempting to submit a proposal until the next
         opportunity in February 2011. This was primarily based on [the Subject's]
         convincing overconfidence, his assumed germane qualifications and experience,
         and his determination to prove the academics wrong. 14



11
     •   Report, page 2 (Tab 2).
12
   A copy of the investigation report is attached at Tab 3. This investigation was not completed in response to a
referral from NSF OIG.
13
   The investigation report stated that the Subject undertook his actions as "Acting Dean." However, the report also
established that the Subject did not officially hold this position at the time. The actual Dean and actual Acting Dean
were both unaware of the proposal at the time.
14
   .Investigation Report, Enclosure (1), Item 3 (Tab 3).

                                                                                                                     3
In response to the investigation, the Institution issued a "non-punitive Letter of Caution" to the
Subject in February 2012 "to clarify what [he] did inappropriately and admonished him not to
repeat." 15 However, this letter did not become part of the Subject's personnel file at the
Institution.

        The investigation report and cover letter transmitting the Institution's investigation report
to NSF express concern about the reputation of the listed PI and coPI on the declined proposal,
as well as for the reputation of the Institution. The report's cover letter from the Institution's
Chief of Staff stated: "We would request that the reviewers of [the NSF proposal] be informed of
the true authors, that neither [the PI nor the coPI] was involved in the preparation or submission
of the proposal, and that the proposal was not reflective oftheir usual excellent standards." 16

                                                OIG Analysis

        By submitting this proposal to NSF, the Subject undermined a basic assumption of the
NSF merit review process -that the proposal was prepared and submitted by the listed PI and
coPI with appropriate research expertise. The true genesis of this proposal, and its preparation
bereft of contributions from the PI and the coPI, and were not disclosed to NSF program officers
and reviewers. Although this proposal was declined, not only was effort expended to review a
proposal probably unqualified for review, but the academic reputations of the PI and coPI were
potentially harmed.

         The Grant Proposal Guide states that "[a]uthors other than the PI (or any coPI) should be
named and acknowledged." 17 Here the Subject and another individual under the Subject's
supervision were the true authors of the proposal. However, neither name was mentioned in the
proposal submitted to NSF. For the foregoing reasons, NSF should act to protect the integrity of
the proposal submission and merit review process. In this situation, neither the PI nor the coPI
was involved with the proposal preparation or submission, and they were unaware that the
proposal had been submitted with their names. The quality of the proposal was poor, as noted in
the ratings from the merit review, and resulted in potential negative harm to the reputations of
the listed PI and coPI.

        The Institution has reviewed its internal policies dealing with procedures for proposal
submission. The Institution's report noted that if procedures already in place had been followed,
the proposal would not have been submitted. It also noted that the Institution has strengthened
internal controls regarding proposal submission since this NSF proposal was submitted.




15
     •  Investigation ~ort, Enclosure (3), Item 6 (Tab 3).
16
   Cover letter to the- Investigation Report.
17
   Grant Proposal Guide, 10-01, Chapter 1, Section D.3

                                                                                                     4
                                            OIG Recommendations

          We recommend that NSF:

      •   Send a letter to the Subject and the Institution emphasizing the unacceptability of falsely
          listing two scientists as PI and coPI of a proposal;
      •   Add a diary note to the electronic jacket for this proposal noting that neither the PI nor
          the coPI was involved in the preparation or submission of the proposal;
      •   Provide written notice to the specific reviewers 18 for this proposal that neither the PI nor
          the coP I was involved in the preparation or submission of the proposal; and
      •   Apprise the relevant NSF Program Officer that neither the PI nor the coPI was involved
          in the preparation or submission of the proposal.




18
     This proposal was reviewed by ad hoc reviewers and there was no panel review or discussion of its merits.

                                                                                                                 5
                                   NATIONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230




     OFFICE OF THE                                                              MAR Z1 Z013
    DEPUTY DIRECTOR



VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




        Re:    Letter of Reprimand

Dear
                                                         submitted a .........,..... nc,<>
                                                  entitled,
                                                    The individuals identified as PI and co PI on
    proposal received notice from NSF of the proposal's declination, but were apparently
 unaware that a proposal had been prepared and submitted to NSF bearing their names. An
investigation conducted byllllrevealed that you prepared the proposal, and used the names of
the PI and coPI without their knowledge. In addition, you instructed ajunior staff member in
-       Sponsored Research Office to submit the proposal with the Authorized Organizational
Representative's ("AOR") signature, without the AOR's knowledge.

        By submitting this proposal to NSF, you undermined a fundamental assumption ofthe
Foundation's merit review process- that the proposal was prepared and submitted by the listed
PI and coPI with appropriate research expertise. The NSF program officers and reviewers
assigned to this proposal were unaware of its true genesis, including the fact that the individuals
identified as PI and coPI had no involvement in the preparation of the proposal. Although this
proposal was declined, a tremendous amount of time and effort was expended in reviewing it,
despite the fact that it might have very well been unqualified for review. Moreover, your actions
potentially harmed the academic reputations of the PI and coPI.

       I am issuing this letter of reprimand to you in order to emphasize the unacceptability of
your conduct with respect to this proposal. Please be advised that any future misconduct of this
nature may result in administrative actions on the part ofNSF, including, but not limited to,
government-wide debarment.
   Should you have any questions about the foregoing, please do not hesitate to contact.
- ' Assistant General Counsel, at (703) 292-5054.



                                                Sincerely,




                                               Cora B. Marrett
                                               Deputy Director
                                    NATIONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230




      OFFICE OF THE
     DEPUTY DIRECTOR
                                                                                 MAR 2 1 Z013


VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




        Re:


Dear-:
       In 2010, the
Science Founalmcm

this propo received notice from NSF of the proposal's declination, but were apparently
unaware that a proposal had been prepared and submitted to NSF     · their names. An
investigation conducted           revealed that
                                                                          and used the names
of the PI and coP I without their             In                     instructed a junior staff
member i n - Sponsored Research Office to submit the proposal with the Authorized
Organizational Representative's ("AOR") signature, without the AOR's knowledge.

        By submitting this proposal to NSF,                    undermined a fundamental
assumption of the Foundation's merit review process- that the proposal was prepared and
submitted by the listed PI and coPI with appropriate research expertise. The NSF program
officers and reviewers assigned to this proposal were unaware of its true genesis, including the
fact that the individuals identified as PI and coPI had no involvement in the preparation of the
proposal. Although this proposal was declined, a tremendous amount of time and effort was
expended in              it,        the fact that it might have very well been unqualified for
review. Moreover,                     actions potentially harmed the academic reputations of the PI
and coPI.
        I am writing to convey the seriousness                       breach of conduct and to
underscore the importance o~, as a sponsoring research organization, upholding its
obligations in connection to proposals submitted for merit review to NSF. I understand that, in
                      llllhas
light of this incident,          strengthened internal controls regarding proposal submission.
NSF appreciates this action on the part o~, and hopes that it continues to take the necessary
steps to ensure that the proposals it submits are genuine. Give~ breach of
conduct and his disre       for the potential harm to his colleagues and the merit review enterprise,
NSF hopes that                    actions are recorded in his official file.

    Should you have any questions about the foregoing, please do not hesitate to contact.
-·Assistant General Counsel, at (703) 292-5054. ·




                                                      Sincerely,

                                                      ~ /).. J~'--"v'--v0t::7
                                                      Cora B. Marrett
                                                      Deputy Director
